ft

9

1

13

IN THE

FILED

SUPREME COURT OF THE UNITED STAT® * 3 M
|_SUPREEMEFrTni‘fRTLi^K

H

men

%

U msJitIZl —

PETITIONER

(Your Name)

vs.

s4rrbe. of

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

0 ^ Critnc n*L

/ fl-pp<Js si-f

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

£

iTKlh Lusrv^d

(YoumSI ame)

(U A BcryC WtH*
(Address)
/

(City, State, Zip Code)

(Phone Number)

Y 9kSfl

QUESTION(S) PRESENTED
1. Did the trial court deny Petitioner a fair trial by refusing
indigent funds for a DNA expert to assist the defense and
testify at trial under Ake v. Oklahoma (1985)?

2. Was appointed trial counsel ineffective for failing to file
proper motions for expert witness fees as even the Court
of Appeals cited in their decision of this case?
3. Did the State's use of false expert testimony related to "touch
DNA" evidence, violate Petitioner's right to a fair trial?
4. Did the State's continued bolstering of its witnesses credibility
deny Petitioner of a fair trial?
5. Did appointed trial counsel's numerous failures and acts of
ineffectiveness deny Petitioner a fair trial under the Sixth
Amendment, as even the Court of Appeals pointed out in their
decision?

TAB LE4DF-C0 NTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

Decision of State Court of Appeals.

APPENDIX B

Decision of State Trial Court.

APPENDIX C

Decision of Court of Criminal Appeals Denying Review
Without Written Order.

APPENDIX D

Decision of Court of Criminal Appeals refusing a
Petition for Discretionary Review.

APPENDIX E
APPENDIX F

LIST-0 E-PARTIES

JXI All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
1. Raymond Lumsden v. State of Texas/ No. 02-16-00366-CR/ Second
Court of Appeals - Fort Worth, Texas. Judgment entred on
November 8, 2018.
2. Ex Parte Raymond,Edward-Lumsden, No. F15-1103-211 WHC 1,
WR- 89,651-02, Court of Criminal Appeals of Texas. Denied on
June 2, 2021.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
D<I For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix _CL___to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
1KI is unpublished.
The opinion of the Sid*- C<ru-'r*t p-f Afp-c^/s
court
appears at Appendix-J*L__ to the petition and is
reported at L^lUrr\sJ-Ci/\^ J-* iotJ S.pO.Sd
-3 %
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including:______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_C

1/*/A*N

[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

a

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER
3,

6

Strickland v. Washington/ 466 U.S. 668 (1984)

3,

6

Brady v. Maryland/ 373 U.S. 83/ 87 (1963)

3,

6

Ake v. Oklahoma/ 470 U.S. 68 (1985)

STATUTES AND RULES
Sixth Amendment

OTHER

Passim

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1. The right to an indigent defendant to have expert witnesses
assist with his defense and testify at his trial under Ake
v. Oklahoma, 470 U.S. 68 (1985).
2. The right to the effective assistance of trial counsel under
Strickland v. Washington, 466 U.S. 668 (1984).

3. The defendant's right to a fair trial under the Sixth Amendment
and Brady v. Maryland, 373 U.S. 83, 87 (1963), where the State
allows its witnesses to provide material false testimony and
fails to correct it.
4. The defendants right to a fair trial under the Sixth Amendment
forbidding the State from bolstering the credibility of its
witnesses, especially in a case where credibility is the "crux"
of the case, as in the present case.

3.

STATEMENT OF THE CASE
Raymond Lumsden, Petitioner, was accused of sexual assault after
a heated domestic argument where he ended the relationship and told
the mother of the complainant to "move out of his home." Without
ever being questioned by law enforcement, Lumsden was indicted by a
Denton County, Texas grand jury on June 5, 2015.
Being indigent, Lumsden was appointed trial counsel, Robert "John"
Holland to represent him Lumsden wrote numerous letters to the trial
court complaining of Holland's refusal to file motions, meet with him,
and complaining of a severe conflict, which the trial court ignored
iniitotality. Even during the trial itself, Lumsden sent a letter to
the trial court complaining of his counsel's refusal to impeach the
lying witnesses with evidence in his possession, etc. Again, the trial
court ignored the letter, and the trial continued.
(

Prior to trial, Lumsden's counsel filed a request for indigent funds
necessary to hire a DNA expert, which the trial court granted. The
defense hired Forensic Expert Suzanna Ryan, who effectively destroyed
the prosecutions alleged DNA evidence, known as "touch DNA." But, she
would never be heard at trial, nor the evidence introduced because
trial counsel "failed to file a proper request for additional funds
for the expert to testify at trial," as the trial court and Court of
Appeals opined in denying Lumsden relief. At a hearing prior to trial,
counsel had only made a verbal request for the additional funds needed
for the DNA expert to travel and testify, which the trial court denied.
At trial, the complainant took the stand, and twice when asked, told
the court that Lumsden.... was NOT her alleged abuser. Just as Lumsden
had maintained all along, and still maintains to this very day. In
fact, the complainant denied most of the original allegation and the
events associated with it, as had been described to authorities by
her mother, the woman/girlfriend that Lumsden had broken up with and
told to leave his home prior to the allegation being reported.
The entire, was an act of character assassination on Lumsden during
the trial, where the prosecution introduced evidence and testimony
that was obviously and known to be false and perjured. For instance,
two probation officer's testified that Lumsden was a "poor probationer
and unbelievable or honest." To the contrary, Lumsden had^been granted
an early release by the probation department for GOOD BEHAVIOR!!!!
More powerful however, was the testimony of the state's DNA expert,
Christina Capt. She told the jury that the "touch DNA" found on the
complainant, was only Lumsden's, couldn't have transferred because
"touch DNA" only transfers through biological fluids, and that it
proved sexual assault had occurred, etc. Every word, false and flatout perjured as the defense DNA expert could/would have exposed had
she been allowed to testify at Lumsden's trial.
In closing, over and over, the state told the jury how credible

and believable their witnesses were, to include the law enforcement
who had conducted "the best investigation I've ever seen. They knocked
it out of the park on this one." Bolstering their.„witnesses to the
fullest extent, without any objection from"th'e~d^fense—counsel—who------fell in-and-out of sleep during trial, and was highly inattentive.
Lumsden's defense counsel provided ineffective assistance in many
instances, as even the Court of Appeals found in their decision to
deny Lumsden any relief, and a new trial. They determined, however,
that Lumsden had not been prejudiced by those failures, which included
counsel's failure to properly request the funds he needed in order
to assure Lumsden's DNA expert, Suzanna Ryan, was at trial to advance
his defense, etc.
The jury found Lumsden guilty, and handed down three (3) stacked
LIFE sentences. Lumsden filed his direct appeal, which was denied,
and then his state writ of habeas corpus, which was also denied.
Lumsden has also filed numerous motions requesting an evidentiary
hearing in the trial court, and additional DNA testing to prove his
innocence in this case, all denied by the trial court without hearing.
In addition, Lumsden has introduced into the trial court cia motions,
evidence that the state provided false testimony and evidence, and
that his.trial.counsel failed to introduce exculpatory and mitigating
evidence at trial, all of which went ignored by the trial court, and
the Texas Appellate Courts.
This Petition, is Lumsden's last and only remaining hope at truth,
justice, and his innocence.

REASONS FOR GRANTING THE PETITION

1. Texas continuously violates this Court's decision in Ake, and
denies defendant's who are indigent, defense experts to assist
with their defense, and to testify at trial, etc. As they did
in this case. Then, the appellate Court's also fail to uphold
the Ake decision. This has NATIONAL significance.

2. Lumsden's court appointed trial counsel knew that DNA evidence
would be critical at trial in requesting the initial funds to
hire a defense DNA expert to give adversarial challenge to the
"touch DNA" evidence of the State. His failure to properly file
a motion requesting additional funds for the defense expert to
testify at trial, was ineffective assistance of counsel and
denied Lumsden a fair trial, where the complainant testified that
Lumsden was NOT her alleged abuser. The DNA expert, was critical
and would have changed the outcome of the case.
3.

This Court has continually held that prosecutor's cannot bolster
the credibility of their witnesses at trial, and when they do,
it violates the constitution and the defendant's right to a fair
trial. Yet it happens with regularity, unchecked, in Texas, as
it did in this case, numerous times, This has National
significance.

4.

This Court decided in Strickland, the responsibility of counsel
in representing a defendant at trial. In this case, counsel
violated them all, and performed miserably, denying Lumsden of
a fair trial and violating his Sixth Amendment right to a fair
trial. This has NATIONAL significance.

5.

The trial court in denying the request for additional funds for
the defense DNA expert to travel and testify at trial, where it
had previously granted funds for her review and findings, was
an abuse of discretion and violated Lumsden's right to a fair
trial. This abuse, has NATIONAL significance and happens on
daily basis in courtrooms across the country.

6.

Because if the Petition is not granted, Lumsden will die in
prison for a crime he did not commit, as even the complainant
herself told the trial court when she testified that Lumsden
was NOT heir alleged abuser. Innocence, has a NATIONAL impact
and significance on every citizen.

6.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

*7<

